              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Cost Transfers at the Department's
Sodium Bearing Waste Treatment
Facility Construction Project




OAS-M-13-03                           August 2013
                                  Department of Energy
                                    Washington, DC 20585

                                         August 8, 2013


MEMORANDUM FOR THE SENIOR ADVISOR FOR ENVIRONMENTAL
               MANAGEMENT



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Cost Transfers at the Department's
                         Sodium Bearing Waste Treatment Facility Construction Project"

BACKGROUND

In 2005, the Department of Energy (Department) awarded the Idaho Cleanup Project contract to
CH2M ♦ WG Idaho, LLC (CWI) to remediate the Idaho National Laboratory. The Sodium
Bearing Waste Treatment Facility construction project was included in the contract scope. The
primary mission of this facility was to treat approximately 900,000 gallons of radioactive sodium
bearing liquid waste at a Federal baseline construction cost of $461 million, which was approved
in December 2006. This facility was constructed to treat the liquid waste for ultimate disposal at
the Waste Isolation Pilot Plant and was also designed to treat high-level radioactive waste,
referred to as calcine waste, at an unspecified future point in time. Due to significant cost
escalation, the Department approved a revised Federal project baseline in January 2009, to a cost
of $571 million and a completion date of August 2011.

Between April and November 2010, CWI made seven funding determinations, transferring $13.1
million to other non-project operational accounts from the $571 million approved project cost. In
January 2011, the Department approved a revision to the project baseline that delayed project
completion to December 2011, but did not change the project's estimated costs. As part of its
approval of additional revisions to the project baseline, the Department required further review of
the transfers by the Office of Environmental Management and the Department's Office of
Acquisition and Project Management. Although the Office of Environmental Management
agreed with the transfers, the Office of Acquisition and Project Management questioned the
appropriateness of the transfers. Subsequently, the Department requested that the Office of
Inspector General determine whether the transferred costs were direct project costs that should
have remained with the project.

RESULTS OF AUDIT

We found that three of the seven cost transfers totaling $7.9 million represented direct costs of
the project as defined by Cost Accounting Standards, CWI's normal charging practices, and the
                                                  2

Department's Financial Management Handbook. As such, we concluded that the costs should
not have been transferred. Specifically, the three cost transfers that should have been classified
as direct project costs included:
    •   $3.8 million for a waste transfer line and tie-in that was one of the technical and
        functional requirements for the facility.

    •   $4 million for mineralization testing, a design study required for permitting the treatment
        process. According to CWI policy, the Total Estimated Cost of an asset includes design
        studies such as the mineralization testing studies.

    •   $107,000 for portable bathrooms because the facilities were directly related to the facility
        construction and would not have been necessary without the project.

We found that four of the seven cost transfers, valued at $5.2 million, were for activities that
were not direct project costs or had been appropriately shared pro rata with other projects in
accordance with Department and CWI accounting and project management principles.

With respect to the three inappropriate cost transfers, we found that these costs were not
appropriately charged to the project because CWI did not consider all pertinent facts. For
example, CWI did not fully consider the fact that the previously mentioned mineralization testing
study was required to gather information needed to scale the size of the facility, mitigate project
risk and to collect data for environmental approvals – all elements that we concluded were
essential to the construction of the facility. CWI had the costs reviewed by its Internal Audit and
an external legal team; however, Internal Audit focused its review primarily on procedural and
documentation issues and relied upon the opinion of the external legal team for determining the
legality and appropriateness of the transfers. While the legal team concluded that the transfers
did not violate applicable regulations and standards, those conclusions were based on a limited
set of data. In particular, CWI concluded that the waste transfer line operability was not part of
the Operational Readiness Review conducted for the startup of the facility. However, the review
actually included the transfer of simulated waste that required the completion of the transfer
lines. As a result, the project costs, in our view, were understated by $7.9 million.

Because the contractor's reimbursements for the project costs were limited by a cost cap,
management informed us that these cost transfers reduced the contractor's liability for costs
above the cost cap. Additionally, management officials told us that the inappropriate cost
allocation issues would be considered during contract closeout negotiations and could impact the
fee determination made by the contracting officer.

We made recommendations designed to help ensure that the cost transfers were reversed into the
line item construction project account and that all project cost transfers were consistent with Cost
Accounting Standards and the Department's Financial Management Handbook.

MANAGEMENT REACTION

Management concurred with the report's recommendations and identified actions it had taken to
address the issues we reported. Management comments are included in Appendix 3.
                                             3

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Chief of Staff
    Deputy Chief Financial Officer
    Director, Office of Management
    Manager, Idaho Operations Office
REPORT ON COST TRANSFERS AT THE DEPARTMENT'S SODIUM
BEARING WASTE TREATMENT FACILITY CONSTRUCTION PROJECT



TABLE OF
CONTENTS


Project Cost Transfers

Details of Finding ..................................................................................................... 1

Recommendations .................................................................................................... 5

Auditor Comments .................................................................................................... 6


Appendices

1. Objective, Scope and Methodology ........................................................................... 7

2. Prior Reports ....................................................................................................... 8

3. Management Comments ......................................................................................... 9
COST TRANSFERS AT THE DEPARTMENT'S SODIUM BEARING
WASTE TREATMENT FACILITY CONSTRUCTION PROJECT

                                    PROJECT COST TRANSFERS

Background

The Department of Energy (Department) awarded the Idaho Cleanup Project contract to CH2M ♦
WG Idaho, LLC (CWI) in 2005. The contract scope primarily included environmental cleanup at
Idaho National Laboratory, and also included the construction of the Sodium Bearing Waste
Treatment Facility. The primary mission of this facility was to treat approximately 900,000
gallons of radioactive liquid sodium bearing waste. This facility had a Federal baseline
construction cost of $461 million and was approved in December 2006, with a planned start of
operations in July 2010. The facility was to treat the liquid waste for ultimate disposal at the
Waste Isolation Pilot Plant. It was also to be designed to treat high-level radioactive waste,
referred to as calcine waste, at an unspecified future point in time. Due to significant cost
escalations, the Department revised the Federal project baseline to increase the total cost to $571
million with a completion date of August 2011.

To minimize project costs charged to the line item project account, CWI reviewed its costs
incurred on the project to determine whether the costs were appropriate. CWI identified a
number of costs that it concluded were not directly attributable to the facility and ultimately
decided to transfer approximately $13.1 million in costs for seven items to other operations
accounts within the contract, reducing the amount charged to the line item project. The funding
determinations for these cost transfers were made between April and November 2010. To ensure
the cost transfers were in compliance with the Federal Acquisition Regulation (FAR), Cost
Accounting Standards, Department Orders, and internal procedures, CWI had the transfers
reviewed by an external legal team, Internal Audit and corporate managers, all of whom
concurred with the transfers.

In January 2011, the Energy Systems Acquisition Advisory Board agreed to make further
changes to the project, and extended the estimated project completion date to December 2011,
but kept the approved total project cost for the facility at $571 million. At that time, the
Advisory Board stipulated that the Office of Environmental Management and the Office of
Acquisition and Project Management 1 would review the cost transfers. Upon review, the Office
of Environmental Management considered the issue closed based on the Idaho Operation Office's
conclusion that the cost transfers did not violate any laws, regulations or applicable accounting
standards. However, the Office of Acquisition and Project Management questioned the
appropriateness of the cost transfers stating that the transfers were contrary to project
management best practices. The Office of the Chief Financial Officer then determined that an
independent audit should be performed to determine whether the costs should have remained
within the project based on the original project baseline established at Critical Decision 2,
Approve Performance Baseline. Subsequently, the Department requested that the Office of

1
  The Advisory Board actually requested that the Department's Office of Engineering and Construction Management
review the cost transfers. However, soon afterward, the Department changed the name of this organization to the
Office of Acquisition and Project Management. Therefore, all references in this report are made to the current
organization.



Page 1                                                                                   Details of Finding
Inspector General determine whether the transferred costs were direct project costs that should
have remained with the project.

Detailed Analysis of Questioned Cost Transfers

Based on Cost Accounting Standards, CWI normal charging practices, and the Department's
Financial Management Handbook, we determined that three of the seven cost transfers valued at
$7.9 million were legitimate project costs that should have remained within the project.
According to 48 CFR Part 9904, Cost Accounting Standards, Section 404 Capitalization of
Tangible Assets, acquisition of tangible assets are capitalized in the construction of an asset, and
all properly allocable costs must be included. Specifically, these standards define a direct cost as
any cost that is identified specifically with a final cost objective. The three costs that were
allocated from the construction project were direct costs of the facility under this definition.
Further, we found the transfers to be inconsistent with the Department's accounting guidelines.
Specifically, Chapter 10 of the Department's Financial Management Handbook, Property, Plant
and Equipment, states that when an entity constructs a depreciable asset for its own use, all direct
costs are included in the total cost of the asset. Each of the three transfers identified were
directly attributable to the project and therefore, should have been included in the total
capitalized cost. These three costs include:

    • $3.8 million for waste transfer and tie-in. These cost were transferred to operations
      funding based on the funding determination made in November 2010. CWI transferred
      the waste transfer line and tie-in costs from the facility project to the Sodium Bearing
      Waste Miscellaneous Support Activities account after concluding that the transfer line
      and tie-in did not need to be in place to complete the construction of the facility, and that
      it was a component of the treatment process as opposed to the construction of the facility.
      However, the facility was originally planned to include the transfer line and tie-in as part
      of the project. In particular, we found that the transfer line and tie-in was listed as one of
      the technical and functional requirements for the facility.

       Additionally, CWI determined that because the waste transfer line and tie-in did not need
       to be completed until after Critical Decision 4, Approve Start of Operations or Project
       Completion (CD-4), which signaled the end of construction, it should not be considered
       part of the facility construction project. However, our review found that the transfer line
       and tie-in was completed prior to CD-4 and was part of the Operational Readiness
       Review the Department conducted as part of approving CD-4, an additional factor
       indicating that it should have been included in the line item project.

       Finally, CWI contended that the waste transfer line and tie-in was not a capital asset
       because the Department's capitalization criteria required an asset to have a 2-year useful
       life but the transfer line and tie-in would only be used for 10 months. This point,
       although accurate, must be balanced against the Cost Accounting Standards, which state
       that the initial complement of equipment necessary to complete the facility includes
       making the facility ready and available for normal operations. Because the waste transfer
       line and tie-in were necessary for the facility's normal operations, and the facility as a



Page 2                                                                          Details of Finding
       whole had an expected life beyond 2 years, in our opinion, it should have been included
       in the capitalized cost of the asset, per the standards.

    • $4 million for mineralization testing. These costs were also transferred to the operations
      funding based on the funding determination made in April 2010. CWI's funding
      determination concluded that the mineralization testing was done to evaluate waste form
      performance and was not necessary for the construction of the facility and treatment of
      the liquid sodium bearing waste. However, we found that the scope and cost of the
      testing was part of the facility asset design study. According to the baseline document,
      the purpose of the testing was to gather information for the production scale of the
      facility, mitigate project risk, and collect data for environmental approvals. The
      mineralization study facilitated the transition from a pilot system to the production scale
      facility and the environmental permitting necessary to operate. As part of the design of
      the facility and consistent with Cost Accounting Standards, it should have been included
      as a direct cost of the facility.

    • $107,000 for portable bathrooms. In this case, the costs were transferred to area Utilities
      and Operations based on the funding determination made in July 2010. CWI's funding
      determination concluded that bathrooms were included in the landlord account and
      should not be charged directly to projects. However, we found that these facilities were
      brought in specifically for the facility construction because the existing bathrooms were
      inconveniently located for the construction personnel. These bathrooms were
      inaccessible to the non-facility personnel and we concluded that the bathrooms would not
      have been necessary absent the facility construction. Therefore, we concluded that this
      project cost should have been allocated to the facility. Finally, the Cost Accounting
      Standards specify that all direct costs and the allocable portion of indirect costs should be
      included in the costs of the capitalized asset.

We concluded that four of the seven cost transfers were consistent with accounting and project
management principles. These costs included:

    • $4.2 million for Request for Equitable Adjustment (REA) preparation. These costs were
      transferred to the area operating account. CWI's funding determination concluded that
      this cost was incurred to negotiate its cleanup contract and fee, and was not exclusive to
      or part of the project. CWI asserted that, in many cases, the REAs are not approved and
      the costs are not directly attributable to a specific project. When approved, CWI charges
      the costs to implement the REA to the project, but not the costs to prepare the REA.
      Based on our assessment of CWI's charging practices and the lack of Department
      guidance on charging REA costs, we concluded that this was an appropriate treatment for
      this cost.

       The Office of Acquisition and Project Management concluded that because the REA was
       specifically tied to the changes in the scope of the facility, costs were allocable to the
       project based on the FAR's definition of allocability. This section of the FAR states that
       a cost is allocable if it is assignable or chargeable to one or more of the cost objectives on
       the basis of relative benefits received or other equitable relationship. We agree that the



Page 3                                                                           Details of Finding
       regulations could be applied in this case to support including the REA as a direct cost of
       the project. However, in reaching our conclusion we relied on the fact that CWI charging
       practices recognize that not all REAs are approved and that the cost of preparing the
       REAs should be distributed across the organization. We concluded that CWI's charging
       practice was consistent with 48 CFR Part 9904, Cost Accounting Standards, Section 402
       Consistency in Allocating Costs Incurred for the Same Purpose.

    • $442,000 for decontamination of the valve cubicle. These costs were transferred to area
      Utilities and Operations. The funding determination explained that decontamination of
      the valve cubicle, which had been contaminated during prior operations at the site, was
      required by regulation and would have been performed under the CWI cleanup scope.
      We found that because the valve cubicle had been contaminated during prior operations
      and that the possibility of future contamination from facility operations was speculative,
      treating the decontamination costs as an operating expense was consistent with CWI's
      approved charging practices. Therefore, we concurred with transferring this cost out of
      the project.

    • $417,000 for hiring and relocation costs. These costs were transferred to operations. The
      contractor's Charging Practices Standard indicates that hiring and relocation costs should
      be charged to the respective project. CWI's funding determination concluded that the
      hiring and relocation costs supported the Sodium Bearing Waste Operations account, not
      the construction of the facility and were not necessary to complete the construction of the
      facility. This was consistent with project management and Cost Accounting Standards
      because the hiring and relocation of the operators did not contribute to the completion of
      the facility. According to Department personnel, this was also consistent with past CWI
      actions.

    • $129,000 for a concrete batch plant. These costs were allocated to the projects using the
      concrete. CWI leased a concrete batch plant that supplied concrete to other users but was
      charged entirely to the facility project. CWI transferred a pro rata share of the batch plant
      lease to the other projects based on usage. Cost Accounting Standards specify that shared
      costs should be allocated among users. Therefore, this was an appropriate project
      charging practice and we concurred with transferring a portion of the lease costs to other
      projects. However, tests of the actual allocation were not included within the scope of
      our audit.

Departmental Review of Cost Transfers

Project costs were not always appropriately charged to the project because CWI did not consider
all pertinent facts. CWI had the costs reviewed by its Internal Audit and an external legal team.
We determined, however, that the reviews by Internal Audit focused primarily on procedural and
documentation issues but relied upon the opinion of the external legal team for determining the
legality and appropriateness of the transfers.

While the legal team concluded that the transfers did not violate applicable regulations and
standards, we found that those conclusions were based on a limited set of data. For example, the
legal team based its conclusion on the mineralization study on verbal communications from CWI


Page 4                                                                         Details of Finding
that the testing was not related to the construction of the facility. This conflicted with the
description of the mineralization study in the project baseline that was not referenced in the legal
team's report. Additionally, the legal team partially based its conclusion on the waste transfer
line on the assumption that the line operability was not part of the facility's Operational
Readiness Reviews. However, both CWI's and the Department's reviews included the simulation
of the transfer of the waste, which necessitated the completion of the transfer line. Further, the
legal team concluded that the bathroom costs could be allocated to either the project or landlord
accounts. Finally, the legal team also determined that only costs leading to the completion of the
facility should be charged to the line item project, and therefore CWI's cost transfers were
consistent with guidelines. However, we concluded that the three inappropriate transfers were
legitimate costs that did contribute to the completion of the facility.

Project Measurement and Performance

As a result, the Sodium Bearing Waste Treatment Facility construction project was undercharged
$7.9 million. The inclusion of all project costs was necessary for accurate project measurement,
and to ensure that the line item project was charged for the appropriate amount. The objective of
successful project management is to deliver a project within the performance baseline and cost
and schedule estimates. According to the Office of Acquisition and Project Management, it is
important that all costs of a project be included for transparency and to know the true cost of a
project.

Because the contractor's reimbursements for the project costs were limited by a cost cap,
management informed us that these cost transfers reduced the contractor's liability for costs above
the cost cap. Additionally, management officials told us that cost allocation would be considered
during contract closeout negotiations and could impact the fee determination by the contracting
officer.

RECOMMENDATIONS

To address the issues identified in this report, we recommend that the Senior Advisor for the Office
of Environmental Management work with the Office of Acquisition and Project Management to:

     1. Reconsider transferring the $7.9 million in costs addressed in by this report to the Sodium
        Bearing Waste Treatment Facility line item project;

     2. Consider whether these cost transfers impact fee during final control closeout and fee
        determination proceedings; and

     3. Ensure that cost allocations are consistent with Cost Accounting Standards and the
        Department Financial Management Handbook.

MANAGEMENT REACTION

The Office of Environmental Management agreed with our recommendations and has taken actions
to address the weaknesses we identified in the report. Management agreed that the costs identified


Page 5                                         Recommendations and Management Reaction
in the report were in excess of the cost cap and were considered unallowable. Further, management
indicated that the costs were considered during the final project closeout and fee determination
proceedings. Finally, management evaluated project cost allocations and determined that the
allocations complied with Cost Accounting Standards and the Department's financial policies.
Management comments are included in Appendix 3.

AUDITOR COMMENTS

Management's corrective actions are responsive to our recommendations.




Page 6                                                                    Auditor Comments
Appendix 1

                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether the transferred costs of the Sodium
Bearing Waste Treatment Facility were direct project costs that should have remained within
the project.

SCOPE

We conducted the audit from August 2012 to February 2013, at the Idaho Operations Office
and CH2M ♦ WG Idaho, LLC (CWI) offices in Idaho Falls, Idaho, as well as Headquarters
Offices.

METHODOLOGY

To accomplish the audit objective, we:

     • Reviewed the contract between the Department of Energy (Department) and CWI;

     • Evaluated the Department's actions taken in response to CWI's cost transfers;

     • Analyzed Cost Accounting Standards, Project Management Requirements, and CWI
        charging practices;

     • Evaluated CWI's approval process for the cost transfers;

     • Assessed the baseline and performance metrics of the facility; and

     • Interviewed key Department and contractor personnel.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objectives. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the Department had established performance measures related to the construction of the
Sodium Bearing Waste Treatment Facility. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to satisfy our audit objective.

Management waived the exit conference.



Page 7                                                    Objective, Scope and Methodology
Appendix 2

                                    PRIOR REPORTS

    • Audit Report on Processing of Sodium-Bearing Waste at the Idaho National
         Laboratory (OAS-L-10-03, February 2010) found that the Department of Energy
         (Department) had not always effectively managed construction of the Sodium
         Bearing Waste Treatment Facility. Specifically, the Department did not ensure the
         project was managed under a sufficiently developed performance baseline. As a
         result, costs were greater than anticipated and the schedule for completing work may
         not have sufficient schedule contingency to deal with unforeseen occurrences and
         delays. The Department made significant design changes to the facility in 2006;
         however, it did not approve the revised baseline until January, 2009. The revised
         baseline showed an increase of approximately $109 million. The Office of Inspector
         General did not make formal recommendations, but suggested that the Office of
         Environmental Management officials continue to focus attention on the status of the
         project.
    •    Management Controls over Changes to the Idaho Cleanup Project Contract Baseline
         (OAS-M-08-10, July 2008). The report noted that in Fiscal Year 2005, the
         Department awarded a Cost Plus Incentive Fee contract to CH2M ♦ WG Idaho, LLC
         (CWI) for cleanup work and that there were changes in the work scope between the
         Request for Proposal and the start of the contract. CWI and the Department
         negotiated the changes between the anticipated and actual status of cleanup work and
         modified the contract in January, 2007. Most of the changes reflected fair and
         reasonable cost adjustments, however three changes were made that were not
         reasonable. Two of the changes removed work for processing two waste streams but
         did not remove the $6.2 million in cost associated with those tasks and one change
         reduced the amount of work associated with constructing a containment building
         without a commensurate reduction of $5.9 million. Management concurred with
         both recommendations to address cost baseline changes relating to the issues
         identified in the report at the next available negotiation, and develop and formalize
         processes to address scope of work reductions related to the CWI contractual
         baseline.




Page 8                                                                           Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 3 (continued)




 Page 10                 Management Comments
                                                                    IG Report No. OAS-M-13-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
